CERTIFICATE OF COMPLIANCE
No.
ANTHONY JOHNSON,
Petitioner,
v.
STORIX, INC.,
Respondent.

In accordance with the Supreme Court’s ORDER of April 15, 2020 and as required
by Supreme Court Rule 33.2,1 certify that the petition for a writ of certiorari is in
compliance with the typeface, size and spacing requirements of Rule 33.2(a) and is
less than the 40 page limit as required by Rule 33.2(b).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 16, 2020

Anthony^mrnson
Pro Se Petitioner

